/

APPENDIX A - Decision of the U.S. Court of Appeals for the
Tenth Circuit
)

(

-26-

UNITED STATES COURT OF APPEALS
FOR THE TENTH CIRCUIT

FILED
United States Court of Appeals
Tenth Circuit
June 17, 2020
Christopher M. Wolpert
Clerk of Court

DONALD L. BAKER
Plaintiff - Appellant,
v.
ANDREI IANCU, Director USPTO;
DREW HIRSHFELD, Comm for Patents,
USPTO; ROBIN O. EVANS, Dir, Tech
Center 2800, USPTO; ELVIN G. ENAD,
Supervisory Patent Examiner, Art Unit
2837, USPTO; MARLON T. FLETCHER,
Primary Patent Examiner, Art Unit 2837,
USPTO,

No. 19-5100
(D.C. No. 4:19-CV-00289-CVE-FHM)
(N.D. Okla.)

Defendants - Appellees,
and
DANIEL SWERDLOW,
Defendant.
ORDER AND JUDGMENT*
Before BRISCOE, MATHESON, and EID, Circuit Judges.

* After examining the briefs and appellate record, this panel has determined
unanimously to honor the parties’ request for a decision on the briefs without oral
argument. See Fed. R. App. P. 34(f); 10th Cir. R. 34.1(G). The case is therefore
submitted without oral argument. This order and judgment is not binding precedent,
except under the doctrines of law of the case, res judicata, and collateral estoppel. It
may be cited, however, for its persuasive value consistent with Fed. R. App. P. 32.1
and 10th Cir. R. 32.1.

Donald L. Baker, pro se, appeals the district court’s order dismissing his
complaint for lack of subject matter jurisdiction. Exercising jurisdiction under
28 U.S.C. § 1291, we affirm. We remand for the court to amend the judgment to
reflect a dismissal without prejudice.
I. BACKGROUND
Mr. Baker filed suit in the United States District Court for the Northern
District of Oklahoma against five employees of the United States Patent and
Trademark Office (“USPTO”) for their alleged fraud and harassment in connection
with the denial of his patent application. The district court dismissed the case for
lack of subject matter jurisdiction
The court first explained that an applicant who wishes to challenge the denial
of a patent claim must first do so through an appeal to the Patent Trial and Appeal
Board (“PTAB”). See 35 U.S.C. § 134(a) (“An applicant for a patent, any of whose
claims has been twice rejected, may appeal from the decision of the primary
examiner to the [PTAB].. .

An applicant who is dissatisfied with the PTAB’s

decision may then appeal to the United States Court of Appeals for the Federal
Circuit. See id. § 141(a) (“An applicant who is dissatisfied with the final decision in
an appeal to the [PTAB] . . . may appeal the .. . decision to the United States Court
of Appeals for the Federal Circuit.”). An applicant who has not taken an appeal to
the Federal Circuit may alternatively bring a “civil action against the Director [of the
USPTO] in the United States District Court for the Eastern District of Virginia.” Id. *
§ 145.
2

The court further explained that it lacked subject matter jurisdiction over
Mr. Baker’s alleged tort claims because he failed to give the USPTO the required
notice under the Federal Tort Claims Act prior to filing suit. See 28 U.S.C. § 2675(a)
(A party cannot file suit on “a claim against the United States for money damages for
injury’ or loss of property .. . caused by the negligent or wrongful act or omission of
any employee of the Government. .. unless the claimant. .. first presents] the
claim to the appropriate Federal agency . . . .”).
II. DISCUSSION
In his briefs to this court, Mr. Baker has not addressed any of the grounds for
the district court’s dismissal as required under Federal Rule of Appellate Procedure
28(a)(8)(A). “Although a pro se litigant’s pleadings are to be construed liberally and
held to a less stringent standard than formal pleadings drafted by lawyers, this court
has repeatedly insisted that pro se parties follow the same rules of procedure that
govern other litigants.” Garrett v. Selby Connor Maddux & Janer, 425 F.3d 836, 840
(10th Cir. 2005) (brackets, citation, and quotations omitted). Where, as here, issues
“are not adequately briefed,” they “will be deemed waived.” Id. (brackets and
quotations omitted).
III. CONCLUSION
We affirm the judgment of the district court and remand only for the court to
amend its judgment to reflect that the dismissal is without prejudice. “A
longstanding line of cases from this circuit holds that where the district court
dismisses an action for lack of jurisdiction, as it did here, the dismissal must be
3

without prejudice.” Brereton v. Bountiful City Corp., 434 F.3d 1213, 1216 (10th Cir.
2006).
Entered for the Court
Scott M. Matheson, Jr.
Circuit Judge

4

19-5100

Donald L. Baker
4203 South 109th East Avenue, Unit 237
Tulsa, OK 74146

UNITED STATES COURT OF APPEALS
FOR THE TENTH CIRCUIT
OFFICE OF THE CLERK
Byron White United States Courthouse
1823 Stout Street
Denver, Colorado 80257
(303)844-3157
Christopher M. Woipert
Clerk of Court

June 17, 2020

Jane K. Castro
Chief Deputy Clerk

Donald L. Baker
4203 South 109th East Avenue, Unit 237
Tulsa, OK 74146
RE:

19-5100, Baker v. lancu, et al
Dist/Ag docket: 4:19-CV-00289-CVE-FHM

Dear Appellant:
Enclosed is a copy of the order and judgment issued today in this matter. The court has
entered judgment on the docket pursuant to Fed. R. App. P. Rule 36.
Please contact this office if you have questions.
Sincerely,

Christopher M. Woipert
Clerk of the Court

cc:

Jeffrey Andrew Gallant

CMW/mlb

»r>\

3TST'‘"

.*

•«,

• *

■

-!>!». • /»*»

\

UNITED STATES COURT OF APPEALS \

US POSTAGE

FOR THE TENTH CIRCUIT
OFFICE OF THE CLERK
BYRON WHITE UNITED STATES COURTHOUSE
1823 STOUT STREET
DENVER, COLORADO 80257

$ 00.65
First-Class
Mailed From 80257
06/17/2020
032A 0061812273

OFFICIAL BUSINESS
PENALTY FOR PRIVATE USE, $300

\

r

-rvr

I

74i4SS3S12 C03i

r

(-is,

■' .3*

\

/

APPENDIX B - Decision of the U.S. District Court for the
Northern District of Oklahoma

\

v

-27-

(

Case 4:19-cv-00289-GVE-FL '

Document 21 Filed in USDC ND

( on 10/22/2019

Page 1 of 8

UNITED STATES DISTRICT COURT FOR THE
NORTHERN DISTRICT OF OKLAHOMA

DONALD L. BAKER,
Plaintiff,
v.

ANDREI IANCU, Director USPTO,
DREW HIRSHFELD, Comm for Patents,
USPTO, ROBIN O. EVANS, Dir, Tech Center
2800, USPTO, ELVIN G. ENAD, Supervisory
Patent Examiner, Art Unit 2837, USPTO, and
MARLON T. FLETCHER, Primary Patent
Examiner, Art Unit 2837, USPTO,
Defendants.

)
)
)
)
)
)
)
)

Case No. 19-CV-0289-CVE-FHM

)
)
)

JX-&

)
)
)
)

OPINION AND ORDER
Now before the Court is Defendant the United States of America’s (USA) Motion to Dismiss
(Dkt. # 14). Plaintiff alleges that five employees of the United States Patent and Trademark Office
(USPTO) committed fraud and harassed him in connection with his application for a patent. He
argues that the USPTO relies on junk science and “magical thinking” when making decisions on
patent applications, and he states that “[i]t has become so blatant for so long that clearly neither the
USPTO, nor the Patent Trial and Appeal Board (PTAB), nor the Department of Commerce Office
of Inspector General can be trusted to ensure professional scientific, engineering and mathematical
standards, ethics and behavior.” Dkt. # 1, at 11. Defendant USA has filed a motion to dismiss (Dkt.
# 14) asserting that the Court lacks subject matter jurisdiction over this case and that plaintiff has
failed to properly serve defendants. Plaintiff is proceeding pro- se and, consistent with Supreme

Case 4:19-cv-002S9-CVE-FH” *

Document 21 Filed in USDC ND/r " on 10/22/2019

Page 2 of 8

Court and Tenth Circuit precedent, the Court will construe his pro se pleadings liberally. Haines v.
Kemer, 404 U.S. 519, 520 (1972); Gaines v. Stenseng, 292 F.3d 1222,1224 (10th Cir. 2002).
I.
On May 28, 2019, plaintiff filed a complaint (Dkt. # 1) alleging that five employees of the
USPTO violated numerous civil and criminal laws in connection with the denial of his application
for a patent. Plaintiff states that he filed a patent application and paid the filing fee, but certain
documents were missing from his application. Dkt. # 1, at 6. Plaintiff supplied the missing forms
or documents, and it appears that he disagreed with the advice given to him by employees of the
USPTO. Id. at 7. Plaintiff states that his patent application was denied, in part, “on the basis of
false interpretation of prior art.” Id. at 9. Plaintiff asked to have the patent examiner assigned to his
application removed, but his request was denied and he was advised to appeal the denial of his patent
application to the PTAB. Id. at 9-10. Plaintiff believed that any appeal to the PTAB would have
been untimely and he threatened to file a civil lawsuit if he was not treated fairly by the USPTO. Id
at 10.
Plaintiff filed this lawsuit alleging claims against the patent examiner, Marlon T. Fletcher,
and other employees of the USPTO who allegedly failed to properly supervise Fletcher. Plaintiff
claims that defendants committed mail and wire fraud, engaged in a racketeering conspiracy, made
false statements and falsified records, and violated his rights under the Equal Protection Clause. Id
at 4. He asks the Court to exercise “original jurisdiction over executive branch agencies,” and he
asserts that the Court has federal question jurisdiction over a “Bivens negligence suit.” Id Plaintiff
seeks injunctive relief, inter alia, preventing the USPTO from relying on “junk science” and asking
thattheUSPTO cease and desist from requiring patent applicants to submit unnecessary paperwork.

2

Case 4:19-cv-00289-CVE-FH'

Document 21 Filed in USDC ND/C

on 10/22/2019

Page 3 of 8

Id. at 20. He is also asking the Court to compel the USPTO to adopt new procedures for the review
of patent applications and to issue an opinion recommending that Congress open an investigation
into the practices of the USPTO. Id. at 21.

n.
DefendantUSA argues that the Courtlacks subject matter jurisdiction over plaintiffs claim,
because he has fil ed his claims in the wrong court and defendants have soverei gn immunity from suit
from any tort claims asserted by plaintiff. In considering a motion to dismiss under Fed. R. Civ. P.
12(b)(1), the Court must determine whether the defendant is facially attacking the complaint or
challenging the jurisdictional facts alleged by the plaintiff. In Holt v. United States, 46 F.3d 1000
(10th Cir. 1995), the Tenth Circuit stated:
Generally, Rule 12(b)(1) motions to dismiss for lack of subject matter jurisdiction
take two forms. First, a facial attack on the complaint’s allegations as to subject
matter jurisdiction questions the sufficiency of the complaint. In reviewing a facial
attack on the complaint, a district court must accept the allegations in the complaint
as true.
Second, a party may go beyond allegations contained in the complaint and challenge
the facts upon which subject matter jurisdiction depends. When reviewing a factual
attack on subj ectmatterjurisdiction, a district court may not presume the truthfulness
of the complaint’s factual allegations.... In such instances, a court’ s reference to
evidence outside the pleadings does not convert the motion to a Rule 56 motion.
In this case, defendant does not present evidence outside of the pleadings an d the Court must accept
the well-pleaded allegations Ofthe complaint as true. Paper, Allied-Industrial, Chemical and Energy
Workers Int’l Union v. Continental Carbon Co., 428 F.3d 1285, 1292 (10th Cir. 2005); Stuart v.
Colorado Interstate Gas Co.. 271 F.3d 1221, 1225 (10th Cir. 2001).

3

Case 4:19-cv-00289^CVE~FH

Document 21 Filed in USDC ND/

on 10/22/2019

Page 4 of 8

HL
DefendantUSA argues that the Court lacks subject matter jurisdiction over this case, because
federal district courts do not generally have jurisdiction over claims concerning the denial of a patent
application. Defendant USA argues that plaintiff was obligated to appeal the denial of his patent
application to the PTAB and, if he was dissatisfied with the PTAB’s decision, he could seek judicial
review in the United States Court of Appeals for the Federal Circuit or the United States District
Court for the Eastern District of Virginia. Dkt. # 14, at 6. To the extent that plaintiff could be
alleging fraud or other tort claims, defendant argues that plaintiff did not present notice ofhis claims
to the appropriate federal agency before filing suit and, even if he had, many of his tort claims would
still be barred. Id. at 8-9. Finally, defendant claims that all defendants were not properly served
under Fed. R. Civ. P. 4(i). Id at 10-11.
Defendant USA argues that plaintiff uses language such as “fraud,” “fraudulent,” or “false
statements” to describe his claims, but this case essentially concerns a dispute over the USPTO’s
rejection of plaintiffs application of a patent. Dkt. # 14, at 5. Under 35 U.S.C. § 134, “[a]n
applicant for a patent, any of whose claims has been twice rejected, may appeal from the decision
of the primary examiner to the [PTAB]....” The final decision of the PTAB may be appealed to
the United States Court of Appeals for the Federal Circuit, or the applicant may file a civil action in
the United States District Court for the Eastern District of Virginia. 3 5 U.S.C. § 141; 35 U.S.C. §
145. A patent applicant must exhaust all administrative remedies, including appeals to the PTAB,
before seeking judicial review of the denial of a patent application, and the exhaustion requirement
also applies to constitutional claims arising out of the patent application process. Cooper v. Lee, 86
F. Supp. 3d 480,484 (E.D. Va. 2015). Plaintiff has styled his claims as “fraud” or negligence, but
4

Case 4:19-cv-00289-CVE-F

1

Document 21 Filed in USDC Nl

K on 10/22/2019

Page 5 of 8

all his potential claims derive from the alleged mishandling and improper denial of his patent
application. Plaintiff admits that he did not file an appeal to the PTAB and, even if he had, this is
not the proper court to seek judicial review of the denial of a patent application. Plaintiffs claims
are subject to dismissal for failure to exhaust administrative remedies and for being filed in a court
without jurisdiction over his claims
To the extent that plaintiff may be alleging tort claims, defendant USA argues that plaintiff
did not present notice of his tort claims to the appropriate federal agency before filing suit. The
United States generally has sovereign immunity from suit, but the Federal Tort Claims Act, 28
U.S.C. 1346(b)(1) (FTCA), provides a waiver of sovereign immunity for certain claims against the
United States and its employees. Federal courts have jurisdiction over “claims against the United
States, for money damages ..., for injuiy or loss of property, or personal injuiy or death caused by
the negligent or wrongful act or omission of any employee of the Government while acting within
the scope of his officer or employment...28 U.S.C. §1346(b)(l). However, there are certain
procedural requirements that must be satisfied before a tort claim can be brought against the United
States and its employees. Before filing suit, a plaintiff must “first present[] the claim

to the

appropriate Federal agency and his claim shall have been finally denied by the agency in writing and
sent by certified or registered mail;’ and a claim will be deemed denied if the agency does

not

respond to the claim within six months. 28 U.S.C. § 2675(a). To proceed with tort claims against
the USPTO, an aggrieved patent claimant must present notice of his tort claims to the Offic

e of

General Counsel for the USPTO, and it is hot sufficient to mention such claims in comm
unications
with the USPTO. Swattz v. Matal, 2017 WL 3611715 (E.D. Va. Aug. 22, 2017) (unpublished).
Defendant argues that plaintiff did not present a tort claim to the Office of General Counsel of the

Case 4:19-cv-00289-CVE-FHr

Document 21 Filed in USDC ND/f

on 10/22/2019

Page 6 of 8

USPTO before filing this case, and plaintiff has failed to respond to this argument. The Court has
reviewed the complaint and plaintiff could be asserting fraud and negligence claims against
defendants. These would be tort claims that could be fi led against employees of the United States
only if plaintiff can show that sovereign immunity has been waived. Dkt. # 1, at 4. Plaintiff does
not offer any argument suggesting that he presented a notice of tort claim before filing suit, and
defendants have sovereign immunity from any tort claims due to plaintiff s failure to comply with
the procedural requirements of the FTCA.
Broadly construing plaintiffs complaint, it is also possible that he intends to allege
constitutional claims under the Fifth Amendment for violations of his right to due process or equal
protection.1 It appears that plaintiffs equal protection claim is based on an alleged disparity in the
treatment of patent applicants with and without an attorney, and he claims that the “USPTO has
attempted to deny the Plaintiff the same right to file multiple independent claims that it allows to
those with patent attorneys.” Dkt. # 1, at 18-19. However, pro se litigants are not a protected class
for the purpose of an equal protection claim. Svatovic v. United States Patent and Trademark Office,
2013 WL4792837, *3 (S.D.N.Y. Sep. 9,2019) (unpublished): Chapman v. Barcus. 2009 WL 57092,
*6 (N.D. Okla. Jan. 7,2009) (unpublished). Broadly construing plaintiffs complaint, he could also
be alleging that his right to procedural due process was violated by the patent application process.
See Dkt. # 1, at 20. “The fundamental requirement of due process is the opportunity to be heard ‘at
a meaningful time and in a meaningful mamier. ’ ” Lawrence v. Reed, 406 F.3d 1224,1233 (10th Cir.
2005). Plaintiff has provided a list of his interactions with the USPTO during the patent application

The Fifth Amendment does not contain an equal protection clause, but the Equal Protection
Clause of the Fourteenth Amendment has been incorporated against the federal government.
Bolling v. Sharpe, 347 U.S. 497 (1954).
6

Case 4:19-CV-00289-CVE-'

M

Document 21 Filed in USDC b

DK on 10/22/2019

Page 7 of 8

process, and it is apparent that he had numerous opportunities to communicate with the patent
examiner and advocate for the issuance of a patent Dkt. # 1, at 6-10. Plaintiff could be arguing that
the patent application process is too complex and that too much procedure is required in order to
obtain a patent, but he has cited no authority suggesting that a person’s right to procedural due
process could be violated by too much procedure. Plaintiff had an opportunity to be heard and he
failed to take advantage of the opportunity to have his patent application reviewed by the PTAB, and
there is no possibility that plaintiff could succeed on a claim for procedural due process.
Defendant USA also argues that plaintiff has failed to properly serve all defendants in
compliance with Fed. R. Civ. P. 4(i). Each defendant is an employee of the USPTO and plaintiffhas
sued them for actions taken on behalf of the USPTO. Rule 4(i)(3) states that, “[t]o serve a United
States Officer or employee sued in an individual capacity for an act or omission occurring in
connection with duties performed on behal f of the United States’s behalf,... a party must serve the
United States and also serve the officer or employee under Rule 4(e), (f), or (g).” Further, “[t]o serve
the United States, a party must: (A)(i) deliver a copy of the summons and of the complaint to the
United States attorney for the district where the action is brought... or (ii) send a copy of each by
registered or certified mail to the civil-process clerk at the United States attorney’s office; [and] (B)
send a copy of each by registered or certified mail to the Attorney General of the United States at
Washington, D.C.... Fed. R. Civ. P. 4(i)(l). Serving the United States and its employees can be
complex and the Court must grant an extensi on of time to cure improper service if such an extension
is requested. Fed. R. Civ. P. 4(i)(4); Ennis v. Donahoe. 2014 WL 69877 (N.D. Okla. Jan. 9, 2014)
(unpublished). However, plaintiff has filed numerous documents since the motion to dismiss was
filed, and none of these documents contains any statement that could be construed as a request for
7

Case 4:19-cv-00289-CVE-FHf

Document 21 Filed in USDC ND/f

on 10/22/2019

Page 8 of 8

additional time to properly serve defendants. Dkt. ## 16, 17,18,19,20. Defendant USA states that
plaintiff sent a copy of the complaint to the USPTO and the Solicitor General by certified mail, but
plaintiff has not served a copy of the complaint on the United States Attorney or the Attorney
General. Dkt. # 14, at 11. In addition, plaintiff has not served a summons on any of the named
defendants. Defendants have not been properly served under Rule 4(i) and plaintiff has not
requested additional time to cure his failure to serve defendants. Plaintiffs failure to properly serve
defendants is an additional reason for the dismissal of his claims.
IT IS THEREFORE ORDERED that Defendant the United States of America’s Motion
to Dismiss (Dkt. # 14) is granted, and plaintiffs claims are dismissed for lack of jurisdiction. A
separate judgment of dismissal is entered herewith.
IT IS FURTHER ORDERED that plaintiffs motion for preliminary injunction (Dkt. # 3),
motion to withdraw documents (Dkt. #10), and motion for order to show cause (Dkt. # 17) are
moot.
DATED this 22nd day of October, 2019.
CLAIRE V. EAGAN
UNITED STATES DISTRICT JUDGE

8

r
!

-mm®.
ok 7-m

;
CLERK, UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF OKLAHOMA

23 OCT
■ iPK i2.il

333 WEST FOURTH STREET. ROOM 411

TULSA. OKLAHOMA 74103-3819

;

FIRST-CLASS MAIL

NEOPOST

10/23/2019

mPJSSMGB l$000.502

OFFICIAL BUSINESS

WS-

ZIP 74103
041 M11287529

t
*)

f

/

\

V
74 14.B-3S 12B2

/

Case 4:19-CV-00289-CVE-FH''

Document 22 Filed in USDC ND/r " on 10/22/2019

Page 1 of 1

UNITED STATES DISTRICT COURT FOR THE
NORTHERN DISTRICT OF OKLAHOMA

DONALD L. BAKER,
Plaintiff,
v.
ANDREI IANCU, Director USPTO,
DREW HIRSHFELD, Comm for Patents,
USPTO, ROBIN O. EVANS, Dir, Tech Center
2800, USPTO, ELVIN G. ENAD, Supervisory
Patent Examiner, Art Unit 2837, USPTO, and
MARLON T. FLETCHER, Primary Patent
Examiner, Art Unit 2837, USPTO,
Defendants.

)
)
)
)
)
)
)
)
)
)
>
>
>
)
)

Case No. 19-CV-0289-CVE-FHM

JUDGMENT OF DISMISSAL
This matter has come before the Court for consideration and an Opinion and Order (Dkt. #
21) dismissing plaintiffs case for lack of subject matter jurisdiction has been entered. A judgment
of dismissal of plainti ff s claims is hereby entered.
IT IS SO ORDERED this 22nd day of October, 2019.

CLAIRE V. EAGAN D
UNITED STATES DISTRICT JUDGE

r

...

TULSA.

'OK 741
. .23 OCT “19
.' PH l.L

CLERK. UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF OKLAHOMA
333 WEST FOURTH STREET. ROOM 411

TULSA. OKLAHOMA 74103-3819
OFFICIAL BUSINESS

NEOPOST

FIRST-CLASS MAIL

majraaTTaaSOOO. 502
ZIP 74103
041M11287529

r
74i46-3Si2S2
if**

MIME-Version: 1.0 From:CM-ECFMail_OKND@oknd.uscourts.gov To:Courtmaii@localhost.localdomain Bcc:
—Case Participants: Jeffrey Andrew Gallant (caseview.ecf@usdoj.gov, jeff.gallant@usdoj.gov,
michelle.hainmock@usdoj.gov, micheUe.schrader@usdoj.gov, sarah.m.coffey@usdoj.gov), Magistrate Judge
Frank H McCarthy (fhmintake_oknd@oknd.uscourts.gov), Judge Claire V Eagan
(cveintake_oknd@oknd.uscourts.gov)
—Non Case Participants:
—No Notice Sent:
Message-Id: Subject:Activity in OKND case 4:19-cv-00289-CVE-FHM Baker v. Iancu et al - Minute Order
Content-Type: text/html
This is an automatic e-mail message generated by the CM/ECF system. Please DO NOT RESPOND to this
e-mail because the mail box is unattended.
***NOTE TO PUBLIC ACCESS USERS*** Judicial Conference of the United States policy permits attorneys
of record and parties in a case (including pro se litigants) to receive one free electronic copy of all documents
filed electronically, if receipt is required by law or directed by the filer. PACER access fees apply to all other
users. To avoid later charges, download a copy of each document during this first viewing. However, if the
referenced document is a transcript, the free copy and 30 page limit do not apply.
U.S. District Court
U.S. District Courtfor the Northern District of Oklahoma

Notice of Electronic Filing

m

The following transaction was entered on 10/23/2019 at 9:54 AM CDT and filed on 10/23/2019
Baker v. Iancu et al
Case Name:
4-1 Q-cv-00289-CVE-FHM
Case Number:
Filer:
Document Number: 24(No document attached)

Docket Text*
MINUTE ORDER by Judge Claire V Eagan - Defendant’s exhibits [23] are stricken as they were
filed after termination of this action (see [21,22])., striking/withdrawi ng document(s) (Re: [23]
Exhibit(s) in Support of Document(s), [22] Judgment,, Dismissing/Terminating Case,,, [21]
Opinion and Order,,,,,,,, Ruling on Motion for Permanent injunction,,,, Ruling on Motion to
Withdraw Documents(s),,,, Ruling on Motion to Dismiss for Lack of Jurisdiction,,,, Ruling on
Motion for Miscellaneous Relief,,,) (Documents Terminated: [23] Exhibit(s) in Support of
Documents)) (This entry is the Official Order of the Court. No document is attached.) (RGG,
Chambers)
4:19-cv-00289-CVE-FHM Notice has been electronically mailed to:
Jeffrey Andrew Gallant Jeff.Gallant@usdoj.gov, CaseView.ECF@usdoj.gov, michelle.hammock@usdoj.gov,
micheIle.schrader@usdoj.gov, sarah.m.coffey@usdoj.gov
4:19-cv-00289-CVE-FHM Notice has not been electronically mailed to:
Donald L Baker
4203 S 109THEAVE

/

CLERK. UNITED STATES DISTRICT COURT

NEOPOST

NORTHERN DISTRICT OF OKLAHOMA
333 WEST FOURTH STREET, ROOM 411

10/24/2019

TULSA, OKLAHOMA 74103-3819

US POSTAGE

FIRST-CLASS MAIL

:$000.50°-

OFFICIAL BUSINESS

ZIP 74103
041M11287529
i

r
i

l

\

>
•i

70- i 4E.S3912 CG31
*0*

i

APPENDIX C - E-mail from Davis S. Warren, USPTO

\

j

i

/

t

-28-

RE: 15/616,396 - ownership

Subject: RE: 15/616,396 - ownership
From: "Warren, David" <David.Warren@USPTO.GOV>
Date: 1/23/2018 8:31 PM
To: "businessl@android-originals.com" <businessl@android-originals.com>
Mr. Baker,

At the moment I don't have time to respond to all your comments below. I'll just say this:
I'll never reject or "pass on" or "throw out" an application just because it's a burden.
It's true that I think you've generated unnecessary work (for both you and me). But once I
determine you have something patentable, I'll do my best to get you the best patent
possible. I don't think I'm there yet.
Yes, I think it's best that I write the claims (with your final approval), In fact, please
don't submit anymore papers without first getting my opinion (again, I think I can save you
time and possibly money).
A note on obviousness: It's not whether something is merely obvious... but obvious to "one
of ordinary skill in the art." Your math is not obvious to one of ordinary skill, but math
is not patentable.
For me, this is the problem: Your invention has two main components, 1) combining any
number of pickups in any possible topology and 2) excluding duplicates. First, there is
prior art that seeks to combine multiple pickups in all possible configurations (series,
parallel, in-phase, out-of-phase). Second, your math merely describes those prior art
combinations, again math is not patentable (there's a nuance here that I can't go into now,
but I will if you request it). Third, your "exclude duplicates" feature lacks enablement.
Let's say your claimed "M" is, say, 4358...an algorithm would be well beyond one of
ordinary skill (thus, an "undergrad" would not be able to do it), you have not provided one
(or "enabled" one). You mentioned this would be easily doable by an undergrad using a
table-lookup system. I disagree. I cannot conceive of any way to generate an "infinite"
(your word) table that would accommodate the breadth of claim 28. You mentioned going
through this and "visually" deleting duplicates. How do you do that with infinite pickups?
How do you do it with 500,00 pickups? 10,000? 500? You mention FFT, claim 28 is silent as
to any FFT. Or, how do you create a table-lookup system to delete duplicates of, say,
500,000,000 pickups? 10,000? 500? Even 25? And finally, to me, removing duplicates is
pretty obvious, e.g., to optimize user experience, to reduce CPU load, minimize
memory/storage, etc. I just did a quick search of "eliminate duplicates" and returned
about 14,000 hits.
I'm sorry, it's been a long day for me here. I'll send you the electronic correspondence
info later (although it appears you've already agreed).
David S. Warren
Primary Patent Examiner
GAU 2837
571-272-2076
------ Original Message------From: Don Baker fmailto:businessl@android-originals.com)
Sent: Tuesday, January 23, 2018 3:00 PM
To: Warren, David <David.Warren(3USPT0.G0V>
Subject: 15/616,396 - ownership

1 of 3

7/8/2018 10:06 AM

APPENDIX D - 181 Complaint on Non-Final Rejection of NPPA
15/917,389

/

-29-

APPENDIX E - Response of TC2800 Director R.O. Evans to 181
Complaint

-30-

\

United States Patent and Trademark Office
UNITED STATES DEPARTMENT OF COMMERCE
United States Patent and Trademark Office
Address: COMMISSIONER FOR PATENTS
P.O. Box 1450
. Alexandria, Virginia 22313-I450
WWW,USplO.gOV

APPLICATION NO.

FILING DATE

.FIRST NAMED INVENTOR

15/917,389

07/14/2018

Donald L. Baker

116309

7590

ATTORNEY DOCKET NO.

CONFIRMATION NO.
7425

05/13/2019

EXAMINER

Donald L Baker dba android originals LC
4203 S 109th EAve #237
Tulsa, OK. 74146

FLETCHER. MARLON T
ART UNIT

PAPER NUMBER

2S37
MAIL DATE

DELIVERY MODE

05/13/2019

PAPER

Please find below and/or attached an Office communication concerning this application or proceeding.
The time period for reply, if any, is set in the attached communication.

PTOL-90A (Rev. 04/07)
I

United States Patent and Trademark Office
Commissioner for Patents
United States Patent and Trademark Office
P.O. Box 1450
Alexandria, VA 22313-1450
WWW.USptO.QOV

Donald L. Baker
4203 S 109th E Avenue #237
Tulsa, OK 74146
In re Application of:
Donald L. Baker
Serial No.: 15/917,389
Filed: July 14, 2018
Title of the Invention: Single-Coil Pickup with
Reversible Magnet and Pole Sensor

MAY 13 OT

DECISION ON PETITION
UNDER 37 CFR§ 1.181

This is a decision on a petition under 37 CFR 1.181, filed on February 18, 2019 and
resent on February 21, 2019 and March 25, 2019, requesting that the above-identified
application be assigned to a different examiner. The petition is before the director of
Technology Center 2800 for a decision,
The petition is DENIED.
Petitioner requests appointment of a new examiner. To support the request, petitioner
asserts the following reasons: that the examiner has discriminated applicant’s status as
Pro Se inventor; that the examiner has fabricated and misrepresented prior arts to reject
his claims. Petitioner further asserts that examiner provided irrelevant patents and
citations thus demonstrating lack of full understanding of the facets of his invention. As
such, Petitioner citing misconduct and examiner lacking the skill of “one of ordinary” in
the art, requests examiner be terminated and replaced on the above application.
A review of the file record reveals that claims 1,11-13 and 15-17 were rejected, while
dependent claims 2-10 and 14 were being objected to as being dependent upon a rejected
base claim but would be allowable if rewritten in independent form including all the
limitations of the base claim and any intervening claims. Peti tioner asserted that the
examiner’s position on the rejected claims over the prior art to Beller, US patent No.
7,166,793, was incorrect because examiner misstated that Beller teaches using a “solidstate preamplifier” which Petitioner alleged does not exist in Beller’s pickup device.
Before addressing the points raised in the petition, the following USPTO practice is
noted:

Application No.: 15/917,389
On Petition

page 2

1. Issues that are petitionable v. appealable: Ordinarily, an objection is petitionable, and a
rejection is appealable, but when the objection is "determinative of the rejection" the
matter may be addressed by the Patent Trial and Appeal Board. See In re Hengehold, 440
F.2d 1395, 1403, 169 USPQ 473, 479 (CCPA 1971) and Ex parte Frye, 94 USPQ2d
1072, 1078 (Bd. Pat. App. & Int. 2010) (precedential). Some matters which have been
determined to be petitionable and not appealable include: a requirement for restriction or
election of species, finality, non-entry of amendments, and holdings of abandonment.
MPEP 1201.
2. All business regarding a patent application must be transacted in writing. 37 CFR 1.2.
Accordingly, a rejection and/or objection that are raised in an Office action must be
addressed in writing by filing a reply.
3. Reassignment of an application during prosecution occurs when the review of the
application file record reveals that the examiner has abused his authority and discretion.
This application is being prosecuted pro se and the file record has been carefully
reviewed.
Under current US Patent and Trademark Office policy of compact prosecution, examiners
are encouraged to contact and work with the patent applicants to promptly bring
prosecution to a close and pass the application to issue where appropriate. This includes
conducting interviews and assisting in drafting claims where appropriate. While extra
efforts are given when an application is being prosecuted pro se, examiners are allotted
limited time to review an application. However, not all patent application prosecution
results in the application being allowed. Disagreement between an examiner and the
applicant on allowable subject matter is not uncommon. When such disagreement
occurs, an applicant may appeal any rejections of any claim twice rejected to the Patent
Trial and Appeal Board and then to the appropriate courts of law, where necessary and
applicable. Disagreement appeared to have arisen from the fact that petitioner believed
that his claims are patentable and that the examiner had failed to appreciate his invention
due to examiner’s failure to understand his invention. Petitioner asserts that, due to
examiner’s failure to understand and appreciate the claimed invention, examiner has
fabricated and misrepresented prior arts to reject his claims.
Reassignment of an application during prosecution occurs when the review of the
application file record reveals that the examiner has abused his authority and discretion.
The record reveals that the examiner has attempted to understand what petitioner
considers as his invention and examiner explained his position as to what would be
considered allowable. The record does not indicate that the examiner has abused his
authority or acted improperly in attempting to bring prosecution to a successful
conclusion and a prompt issuance of a patent. Contrary to petitioner’s assertions,
disagreements between the petitioner and the examiner about the merits of a prior art
reference or of a rejection are inherently not a violation of the USPTO practice that rises

Application No.: 15/917,389
On Petition

page 3

to a conduct level of abuse of authority and discretion. Disagreement on the merits of the
claims and their rejections may be resolved by appealing to the Patent trial and Appeal
Board. Since there is disagreement between petitioner and the examiner regarding the
patentability of the claimed invention, an appropriate action by the petitioner would be to
appeal the rejections to the PTAB or to file a reply, in writing, to argue and point out
where the rejections are flawed.
For the above stated reasons, the request to replace the examiner is hereby denied.
The application will remain assigned to the same examiner.
When disagreement on the merits of the claimed invention occurs, an applicant may
appeal any rejections made by the examiner to the Patent Trial and Appeal Board and
then to the appropriate courts of law, where necessary. This option is currently available
to the applicant but must be exercised before the maximum extendable statutory period
expires and the application becomes abandoned.
The file of record re veals that the examiner has indicated allowable subject matter if the
dependent claims were rewritten in independent form including all of the limitations of
the base claim and any intervening claims. Petitioner is encouraged to contact the
examiner or his Supervisory Patent Examiner to bring prosecution to a successful
conclusion. However, the substance discussed during any future communications should
be summarized and made of record by both the applicant and the examiner.
The shortened statutory period for reply to the Office action of February 4, 2019
continues to run three (3) months from its mailed date. Extensions of this time
period are governed by 37 CFR 1.136 but under no circumstances this time period
may be extended past six (6) months. A reply to the Office action must be filed on or
before August 4, 2019, along with any applicable request for extension of time and
appropriate extension of time fee, to avoid the application from becoming
abandoned by operation of law.
Telephone inquiries should be directed to Elvin Enad, Supervisory Patent Examiner, at
(571)272-1990.

d

RobmdEvans, Director
Technology Center 2800
Semiconductors, Electrical and Optical
Systems and Component
RE:ee/lf

cJ>

Organization

THPROn

Bldg./Room

UNITED STATES PATENT AND TRADEMARK OFFICE
P.O. Box 1450
Alexandria, VA. 22313-1450
If Undeliverable Return In Ten Days

pff

f

M ■

AN EQUAL OPPORTUNITY EMPLOYER

Official Business
Penalty For Private Use, $300
!■

n
■

j

:i
V

74146S3912 CD3i

m

I

S

/

APPENDIX F - Final Rejection of NPPA 15/917,389

-31-

United States 1

snt and Trademark Office
UNITED STATES DEPARTMENT OF COMMERCE

United States Patent and Trademark Office
Address: COMMISSIONER FOR PATENTS
P.O. Box 1450
Alexandria, Virginia 22313-1450
www.uspto.gov

APPLICATION NO.

FILING DATE

FIRST NAMED rNVENTOR

15/917,389

07/14/2018

Donald L. Baker

116309

7590

ATTORNEY DOCKET NO.

7425
EXAMINER

12/05/2019

Donald L Baker dba android originals LC
4203 S 109th E Ave #237
Tulsa, OK 74146

CONFIRMATION NO.

FLETCHER, MARLON T

ART UNIT

PAFF.R NUMBER

2837
MAIL DATE

DELIVERY MODE

12/05/2019

PAPER

Please find below and/or attached an Office communication concerning this application or proceeding.
The time period for reply, if any, is set in the attached communication.

PTOL-90A (Rev. 04/07)

□

Office Action Summary

Application No.
15/917,389

Applicant(s)
Baker, Donald L.

Examiner
MARLON T FLETCHER

Art Unit
2837

AIA (FITF) Status

Yes

„ The MAILING DATE of this communication appears on the cover sheet with the correspondence address -

Period for Reply
A SHORTENED STATUTORY PERIOD FOR REPLY IS SET TO EXPIRE 3 MONTHS FROM THE MAILING
the provisions of 37 CFR 1.136(a). In no event, however, may a reply be timely filed after SIX (6) MONTHS from the mailing
- fftot™

above, the maximum statute^ period will apply and will expire SIX Wc°m™"ication'

adjustment. See 37 CFR 1.704(b).

Status
1)@ Responsive to communication(s) filed on 2/18/19.
□ A declaration(s)/affidavit(s) under 37 CFR 1.130(b) was/were filed on
2b) □ This action is non-final.
2a)0 This action is FINAL.
3)0 An election was made by the applicant in response to a restriction requirement set forth during the interview
on
; the restriction requirement and election have been incorporated into this action.
4)Q since this application is in condition for allowance except for formal matters, prosecution as to the merits is
closed in accordance with the practice under Ex parte Quayte, 1935 C.D. 11,453 O.G. 213.
Disposition of Claims*
5) 0 Claim(s)
1-20 is/are pending in the application.
5a) Of the above claim(s) 18-20 is/are withdrawn from consideration,
is/are allowed.
6) □ Claim(s)
7) 0 Claim(s) 1,11-13 and 15-17 is/are rejected.
8) 0 Ciaim(s) 2-10 and 14 is/are objected to.
are subject to restriction and/or election requirement
9) □ Claim(s)
participating intellectual property office for the corresponding application. For more information, please see
http://www.usptf.-nnv/oatents/init events/pph/index.isp. or send an inquiry to PPHfeedback@uspto.gov,

Application Papers
10)Q The specification is objected to by the Examiner.
is/are: a)Q accepted or b)D objected to by the Examiner.
11 )□ The drawing(s) filed on
Applicant may not request that any objection to the drawing(s) be held in abeyance. See 37 CFR 1.85(a).
Replacement drawing sheet(s) including the correction is required if the drawing(s) is objected to. See 37 CFR 1.121(d).

Priority under 35 U.S.C. § 119
12)D Acknowledgment is made of a claim for foreign priority under 35 U.S.C. § 119(a)-(d) or (f).
Certified copies:

a)D All
b)D Some**
c)D None of the:
1 .□ Certified copies of the priority documents have been received.
2.Q

Certified copies of the priority documents have been received in Application No.____ .

3.0

Copies of the certified copies of the priority documents have been received in this National Stage
application from the International Bureau (PCT Rule 17.2(a)).

** See the attached detailed Office action for a list of the certified copies not received.
Attachment(s)
1) 0 Notice of References Cited (PTO-892)

3) 0 Interview Summary (PTO-413)

2) 0 Information Disclosure Statement(s) (PTO/SB/O8a and/or PTO/SB/O8b)

4) Q Other:

Paper No(s}/Mail Date
Paper No(s)/Mail Date.
U.S. Patent and Trademark Office
PTOL-326 (Rev. 11-13)

Office Action Summary

Part of Paper No./Mail Date 20191204

Page2

Application/Control Number:15/917,389
Art Unit:2837
Notice ofPre-AiA or AiA Status
1.

The present application, filed on or after March 16, 2013, is being examined under the first

inventor to file provisions of the AIA.

DETAILED ACTION
Notice ofPre-AIA or AIA Status
2.

The present application, filed on or after March 16, 2013, is being examined under the first

inventor to file provisions of the AIA.
Claim Objections

3.

Claims 2-17 are objected to because of the following informalities.
The preamble of the claims recite "An embodiment as recited ..." All of the claims depend from

independent claim 1. In referring back to independent claim 1, the preamble should recite

"The

electromagnetic coil vibration pickup, as recited ..." The claims should not refer to an embodiment.
Appropriate correction is required, {refer to some of the prior art patents to help write proper
dependency claims or refer to the MPEP).

Claim Rejections - 35 USC § 112
4.

The following is a quotation of 35 U.S.C. 112(b):
(b) CONCLUSION.—The specification shall conclude with one or more claims particularly pointing out
and distinctly claiming the subject matter which the inventor or a joint inventor regards as the
invention.

5.

The following is a quotation of 35 U.S.C 112 (pre-AIA), second paragraph:
The specification shall conclude with one or more claims particularly pointing out and distinctly
claiming the subject matter which the applicant regards as his invention.

Page3

Application/Control Number:15/917,389
Art Unit:2837
Claim 16 recites the limitation "said pole-sensing device" in lines 1-2. There is insufficient

6.

antecedent basis for this limitation in the claim. There is

no

mentioning of "a pole-sensing device" in

claim 1. Correction is required.

Claim Rejections - 35 USC § 102
7.

The following is a quotation of the appropriate paragraphs of 35 U.S.C. 102 that form the basis

for the rejections under this section made in this Office action:
A person shall be entitled to a patent unless claimed invention was patented, described in a printed publication, or in public use, on sale
(a)(1) the
or otherwise available to the public before the effective filing date of the claimed invention.

8.

Claim(s) 1,11-13, is/are rejected under 35 U.S.C. 102(a)(1) as being anticipated by Beller

(7,166,793).
Beller discloses an electromagnetic coil vibration pickup, generally mounted in the body of
another device, comprised of: a coil (26) of insulated electrical wire to detect variations in a magnetic
field,

said variations caused by one or more vibrating magnetically permeable objects (figure 3); a

magnetic core (ALNICO ROD MAGNET) to shape and provide said magnetic field, preferably with
its magnetic field oriented along the axis of said coil, said core and field easily reversible by hand with
respect to said coil and said vibrating objects (figure 3), and a device which provides an electrical signal
when a preferred pole of said magnetic core is oriented in a preferred direction with respect to said one
or more vibrating ferrous objects (column 8, line 60 - column 9, line 19; and figure 4); and a support
structure for said coil, said magnetic core and said signal device, such the physical orientation of the
field of said magnetic core, with respect to said vibrating objects, can be easily reversed by hand (figures
3 and 5).

Application/Control Number: 15/917,389

Page4

Art Unit:2837
Beller discloses an embodiment, wherein said magnetic core varies in magnetic properties and
physical dimensions in 3 dimensions, so as to shape the resulting field in the region of said vibrating
objects (figure 5; and column 10, line 64 - column 11, line 19).
Beller discloses an embodiment as recited in Claim 1, wherein an active and powered solid-state
preamplifier, preferably fully differential, is incorporated into said support structure, taking as input the
output of said wire coil, and the output of said preamp is presented elsewhere as the output of said
pickup (column 10, line 58 — column 11, line 35).
Beller discloses an embodiment, wherein said pickup contains a ferro-magnetic plate on the side
opposite said vibrating objects, so as to impede the extent of said magnetic field of said magnetic core in
that direction (column 7, lines 44-60).

Claim Rejections - 35 USC § 103

9.

The following is a quotation of 35 U.S.C. 103 which forms the basis for all obviousness rejections

set forth in this Office action:
A patent for a claimed invention may not be obtained, notwithstanding that the claimed invention is
not identically disclosed as set forth in section 102, if the differences between the claimed invention
and the prior art are such that the claimed invention as a whole would have been obvious before the
effective filing date of the claimed invention to a person having ordinary skill in the art to which the
claimed invention pertains. Patentability shali not be negated by the manner in which the invention
was made.

10.

Claim 15 is/are rejected under 35 U.S.C. 103 as being unpatentable over Beller.
Beller is discussed above. Beller does not disclose magnetic cores varying in shape and

dimension. However, Official Notice is taken with respect to it being well known in the art that shape
and dimension of the magnetic core will change values of the strength and gradient of the magnetic
field.

Page5

Application/Control Number:15/917,389
Art Unit:2837

It would have been obvious to one of ordinary skill in the art at the time the invention was filed
to utilize the well known teachings in the art with Beller, because the teachings provide the ability to
vary the magnetic field generated by each core.

11.

Claim 16 and 17 is/are rejected under 35 U.S.C. 103 as being unpatentable over Beller in view of

Wallace (8,269,095).
Beller is discussed above. Beller does not disclose a pole sensing device.
However, Wallace discloses an electromagnetic pickup, wherein a pole sensing device is a solid
state magnetic field and direction detector (column 15, lines 56-62).
It would have been obvious to one of ordinary skill in the art at the time the invention was filed
to utilize the teachings of Wallace with Beller, because the teachings provide the detection of poles and
their orientation.

Allowable Subject Matter

12.

Claims 2-10 and 14 are objected to as being dependent upon a rejected base claim, but would

be allowable if rewritten in independent form including all of the limitations of the base claim and any
intervening claims.

Response to Arguments

13.

Applicant's arguments filed 2/18/2019 have been fully considered but they are not persuasive.
The applicant makes several arguments. With regards to the "question of racial and class

discrimination, I will not address these arguments in that they do not pertain to the merits of this case.
The applicant makes arguments stating "Mr. Fletcher cites irrelevant prior art..."

Application/Control Number:15/917,389
Art Unit:2837

Page6

The applicant argues that "Mr. Fletcher blatantly fabricates prior art..." The applicant clearly
does not understand the process of examining patent applications. While I will not address the
applicant's demeaning and disrespectful comments, the examiner has no reason to fabricate nor treat
the applicant in any particular way. Based on the broadly written claims, there are many references that
could be used to meet the claim limitations of the present invention. Looking at claim 1 of the present
invention, the prior art merely needs to provide an electromagnetic pickup that provides (a) a coil of
insulated electrical wire to detect variations in a magnetic field ..; (b) a magnetic core .. to provide said
magnetic field ....; (c) a device which provides an electrical signal... and (d) a support structure for said
coil, said magnetic core and said signal device,... Claim 1 discloses language such as preferably with its
magnetic field oriented ..." and "when a preferred pole of said magnetic core is oriented in a preferred
direction". The terms "preferably" and "preferred" are that are optional rather than distinct terms.
Therefore, "preferably" provides an ideal way of doing something; however, not the only way of doing
something. This optional language broadens the claim. Therefore, the limitations as provided in the
present claims are met.
The applicant states that "Beller's invention is demonstrably different..." The applicant goes on
to explain the difference in Beller's pickups and applicant's present invention. While the inventions may
not be the same, examination is based on what the applicant claims as his invention. The applicant
makes arguments that do not pertain to what has been claimed. The applicant's claims are written
broadly and are examined in a broad manner.
The applicant argues "Mr. Fletcher misrepresent prior art." Mr. Fletcher disagrees. Again, the
applicant does not appear to understand the examination process. The claims to an invention are read
and view in light of its broadest interpretation. The rejection of the claims are based on the broadest
reasonable interpretation of the claims. The claims should be written in a clear, concise, and distinct
manner in a way to define the invention being claimed. When a claim is written so broadly that prior art

Page7

Application/Control Number:15/917,389
Art Unit:2837
can be read on the claim language, the rejection should be made based on the claim language.
Applicant argues points that are not provided in the claim language.

Applicant argues that "Mr. Fletcher has tittle ordinary skill in the art." Again, as stated above,
the claim limitations are met by the prior art. Not all of the claims are rejected by the prior art. The
applicant argues points that are not recited in the rejected claims. The applicant may want to seek legal
help from the patent office help desk or seek help from a patent attorney. Understanding the Manual of
Patent Examining Procedures would help the applicant understand the rejection provided in the non­
final office action (2/4/19).
The applicant argues "Mr. Fletcher discriminates, and denies patent protection ..." Mr. Fletcher
disagrees and has pointed out allowable subject matter which provides ' patent protection.

However,

the applicant has chosen not to address nor amend these allowable claims. Applicant makes arguments
that pertain to references not used in the rejection provided in the non-final office action. These argues
will not be address, since they are irrelevant to the non-final office action.
As stated by the applicant in the "conclusion ....", "No doubt I could have written some claims
better". The writing of the claims are crucial and is the basis for patentability. The claims are what is
provided patent protection. While the specification and specifically, the detailed description provides
the written description of the invention for patent, the claims are what the applicant provides to define
what the applicant believes to be their invention. The claims should distinguish the present invention
over the prior art. The rejected claims in the present invention, do not distinguish over the prior art.
Therefore, the previous rejection is maintained and stands.

Conclusion
THIS ACTION IS MADE FINAL Applicant is reminded of the extension of time policy as set forth
in 37CFR 1.136(a).

Application/Control Number:15/917,389
Art Unit:2837

Page8

A shortened statutory period for reply to this final action is set to expire THREE MONTHS from
the mailing date of this action. In the event a first reply is filed within TWO MONTHS of the mailing date
of this final action and the advisory action is not mailed until after the end of the THREE-MONTH
shortened statutory period, then the shortened statutory period will expire on the date the advisory
action is mailed, and any extension fee pursuant to 37 CFR 1.136(a) will be calculated from the mailing
date of the advisory action. In no event, however, will the statutory period for reply expire later than
SIX MONTHS from the mailing date of this final action.

Any inquiry concerning this communication or earlier communications from the examiner
should be directed to MARLON T FLETCHER whose telephone number is (571)272-2063. The examiner
can normally be reached on M-F 6:30am-4:30pm.
Examiner interviews are available via telephone, in-person, and video conferencing using a
USPTO supplied web-based collaboration tool. To schedule an interview, applicant is encouraged to use
the USPTO Automated Interview Request (AIR) at http://www.uspto.gov/interviewpractice.
If attempts to reach the examiner by telephone are unsuccessful, the examiner's supervisor,
Elvin Enad can be reached on 571-272-1990. The fax phone number for the organization where this
application or proceeding is assigned is 571-273-8300.
Information regarding the status of an application may be obtained from the Patent Application
Information Retrieval (PAIR) system. Status information for published applications may be obtained

Application/Control Number:15/917,389
Art Unit:2837

Page9

from either Private PAIR or Public PAIR. Status information for unpublished applications is available
through Private PAIR only. For more information about the PAIR system, see http://pairdirect.uspto.gov. Should you have questions on access to the Private PAIR system, contact the Electronic
Business Center (EBC) at 866-217-9197 (toll-free). If you would like assistance from a USPTO Customer
Service Representative or access to the automated information system, call 800-786-9199 (IN USA OR
CANADA) or 571-272-1000.

MTF

12/4/19
/MARLON T FLETCHER/
Primary Examiner, Art Unit 2837

TCI 600

mm

Bldg./Room_
Organization
united states patent and trademark office

p;0. Box 1450
Alexandria, VA. 22313-1450
If Undeliverable Return In Ten Days

|:US.POSTAGE

RTNEYBOWES

bsf^s

.... ,0

AN EQUAL OPPORTUNITY EMPLOYER

?

I

5: IT'4 $006-©s*

4

1

i

■ 4

1

Official Business
Penally For Private Use, $300

/

-

v,'

1

.

!

i
i
1

?4i4B$3Si2 €03i

Additional material
from this filing is
available in the
Clerk's Office.

